           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        EFFECTIVENESS OF
 DECENTRALIZED CORRESPONDENCE
       SENT TO EMPLOYERS

 September 2006    A-03-06-26096




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   September 25, 2006                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Effectiveness of Decentralized Correspondence Sent to Employers (A-03-06-26096)



        OBJECTIVE
        Our objective was to assess the effectiveness of Decentralized Correspondence
        (DECOR) sent to employers.

        BACKGROUND
        As part of the annual wage reporting process, SSA validates the names and Social
        Security numbers (SSN) on the Wage and Tax Statement (Form W-2) against
        information in its records. Earnings reports containing names and/or SSNs that do not
        match SSA's records cannot be posted to individuals’ earnings records in SSA's Master
        Earnings File (MEF).1 Instead, these reported earnings are placed in SSA's Earnings
        Suspense File (ESF)—an electronic holding file for unmatched earnings reports. As of
        October 2005,2 the ESF had accumulated approximately 255 million wage items for Tax
        Years (TY) 1937 through 2003, representing about $520 billion in wages.3

        The purpose of the DECOR process is to contact employees and employers to resolve
        SSN and/or name discrepancies on wage items stored in the ESF.4 Details related to
        the suspended wage items are placed on the DECOR Mailer File, which is sent to a
        contractor who prints the DECOR letters and mails them to the appropriate parties.5



        1
          The MEF contains all earnings data reported by employers and self-employed individuals. The data is
        used to determine eligibility for and calculation of Social Security benefits.
        2
          SSA provides us with ESF data after it has been run through most of the Agency’s edit routines.
        As a result, our ESF numbers do not account for recent additions to the file, which we estimate will be
        another 9 to 10 million new wage items annually before the edits have been applied.
        3
          These numbers relate to wages reported by employers and not self-employment income. SSA
        maintains a separate ESF file for suspended self-employment income.
        4
          SSA, Program Operations Manual System (POMS), WB 01201.003 - DECOR Process Overview.
        5
          Our report does not discuss self-employment income nor the letters sent to individuals with suspended
        self-employment income. For TY 2002, SSA sent approximately 131,000 letters to individuals with
        suspended self-employment income.
Page 2 – The Commissioner


DECOR letters provide wage earners with information about the reported names/SSNs
and wage amounts, and request that the reported information be reviewed, verified or
corrected when possible, and returned to SSA.6 While SSA sends most DECOR letters
to employees,7 SSA sends a letter to the employer when an employee's address is
incomplete or incorrect (see Appendix B for a copy of the letter sent to employers).8
SSA uses the responses to resolve the earnings discrepancies.

At the conclusion of an earlier audit,9 SSA management requested that we determine
whether the DECOR letters sent to employers resulted in successful reinstatements of
wages. For TY 2002, SSA mailed approximately 9.5 million DECOR letters, relating to
about $60.4 billion in wages, to employees and employers. Approximately 7.6 million
DECOR letters were sent to employees and another 1.9 million letters were sent to
employers. Our analysis of the entire TY 2002 DECOR Mailer File10 showed there were
about 884,000 specific employers in this file (see Appendix C for more on the contents
of the DECOR Mailer File).

In addition to the DECOR letters, the Agency sends Educational Correspondence
(EDCOR) letters to employers who submit W-2s containing name/SSN information that
does not agree with SSA's records11 and meets specific criteria.12 EDCOR letters
provide employers with up to 500 SSNs but do not provide names. In the letter, SSA
requests that employers file corrected W-2s to resolve the suspended items.

RESULTS OF REVIEW
We found that suspended wage items referred to employers were more likely to be
reinstated under the DECOR process when compared to those referred directly to
employees. We also determined that DECOR letters to employers expanded the
population of employers who were notified of name/SSN mismatches among their
employees. However, we estimate that approximately 57 percent of employers in the
TY 2002 DECOR Mailer File were never informed through SSA’s correspondence
processes about their wage reporting problems. SSA correspondence with employers
regarding name/SSN mismatches in their wage reports could provide employers an

6
  SSA, POMS, WB 01201.003 - DECOR Process Overview.
7
  SSA uses employee addresses reported on the W-2 to mail DECOR letters. We reviewed the DECOR
employee letters in an earlier audit—see our September 2005 report Usefulness of Decentralized
Correspondence in Focusing Employer-Assistance Activities (A-03-05-25007).
8
  SSA uses the employer address related to the Employer Identification Number (EIN) reported on the
W-2. The EIN is a 9-digit number assigned by the Internal Revenue Service (IRS) to sole proprietors,
corporations, partnerships, estates, trusts, and other entities for tax filing and reporting purposes. The
employer address related to the EIN is provided by the IRS.
9
  SSA Office of the Inspector General (OIG), Usefulness of Decentralized Correspondence in Focusing
Employer-Assistance Activities (A-03-05-25007), September 2005.
10
   Although the letters were mailed during Calendar Year 2003, the majority of these wage items related
to TY 2002. As a result, we will refer to this file as a “TY 2002” file in this report. We reviewed the TY
2002
11
       DECOR mailer file since that was the most recent file available at the time of our review.
   SSA, POMS, NL 00901.051 - Educational Correspondence (EDCOR) (Code V - No-match letter).
12
   To receive an EDCOR letter, the employer must have more than 10 suspended items and more than
.5 percent of the items in the wage report failing to match SSA’s records.
Page 3 – The Commissioner


opportunity to correct inaccuracies prior to other Federal agencies assessing penalties
or taking other enforcement actions.

REINSTATED SUSPENDED WAGE ITEMS

We found that suspended wage items referred to employers under the DECOR process
were more likely to be reinstated than those referred directly to the employee. We
reviewed 275 sample items related to each process, employer letters and employee
letters, and found that about 5.1 percent of the employer letter sample items had been
reinstated under the DECOR process. By comparison, approximately 2.9 percent of the
employee letter sample items had been reinstated under the DECOR process. We also
found that 50 percent of the employer-related reinstatements related to SSNs recorded
as all zeroes in SSA’s systems.

Employer Letters

We reviewed 275 sample items from among the 1.9 million DECOR letters sent to
employers from the TY 2002 DECOR Mailer File. In our review of the ESF and MEF,
we found that 14 wage items, 5.1 percent, were reinstated under the DECOR process.
These 14 reinstatements related to approximately $165,000 in reinstated wages (see
Figures 1 and 2 for more information on the reinstated items).13 If we project these
14 reinstatements to the population of 1.9 million employer letters, we estimate that
employer letters from the TY 2002 Mailer File led to the reinstatement of approximately
97,900 wage items related to about $1.2 billion in wages. See Appendix F for our
sample methodology.

Employee Letters

We also reviewed 275 sample items from among the 7.6 million DECOR letters sent to
employees from the TY 2002 DECOR Mailer File. In our review of the ESF and MEF,
we found that 8 wage items, or 2.9 percent, were reinstated under the DECOR process.
These 8 reinstatements related to approximately $49,000 in reinstated wages (see
Figures 1 and 2 for more information on the reinstated items).14 Projecting these
8 reinstatements to the population of 7.6 million employee letters, we estimate that
employee letters from the TY 2002 Mailer File led to the reinstatement of approximately
221,300 wage items related to about $1.3 billion in wages. See Appendix F for our
sample methodology.




13
     See Appendices F and G for more details on the sample items.
14
     Ibid.
Page 4 – The Commissioner




                          Figure 1: Reinstated Wage Items from Sample of
                                       TY 2002 DECOR Letters
                                    (275 Sample Items Per Letter)
                                                        14
                                       15
                         Reinstated

                                                                                8
                                       10
                           Items



                                        5

                                        0
                                                Employer Letters      Employee Letters
                                                             Type of Letter




                                Figure 2: Reinstated Wages from Sample of
                                          TY 2002 DECOR Letters
                                       (275 Sample Items Per Letter)

                                200,000                 165,000
                   Reinstated




                                150,000
                   Wages ($)




                                100,000                                         49,000

                                      50,000

                                            0
                                                  Employer Letters       Employee Letters
                                                               Type of Letter



Reinstatement Trends Among Employer Letters

We reviewed the employer-related reinstated wage items for possible trends and found
that 7 of 14 employer letter reinstatements, or 50 percent, were all zero SSNs.15 The
IRS instructs employers who file their wages electronically to use all zeros in the SSN
block of the Form W-2 if the employee has applied for an SSN but has not received it at




15
     None of the 8 employee-related reinstatements were all zero SSNs.
Page 5 – The Commissioner


the time he or she was hired.16 In the case of paper W-2s, the employer can simply
enter the words “applied for” in the SSN block. However, SSA's systems convert blanks
and alphanumeric fields into zeros, making it hard to differentiate between what the
employer reported and what SSA recorded.

We reviewed the actual Form W-2 information for the seven employer-related
reinstatements and found that six of the W-2s had blanks in the SSN field and the
seventh W-2 had alphanumeric information (but not the “applied for” language). We
also determined that all seven individuals associated with these reinstatements were
U.S. citizens who had valid SSNs during the TY in question. Hence, the IRS
instructions would not have applied, since none of the individuals were awaiting SSNs.
Instead, it appears the employers simply failed to record available information at the
time of filing the W-2s. Moreover, it appears employers were more likely to correct this
type of error.17

EMPLOYER CORRESPONDENCE

We determined that the majority of the DECOR letters sent to the employers in our
sample notified them of wage reporting problems they would not have been alerted to
under the EDCOR correspondence process. Furthermore, we estimate that 57 percent
of the employers in the TY 2002 DECOR Mailer File were never informed of their wage
reporting problems through either the DECOR or EDCOR correspondence process.
This name/SSN mismatch information could be useful to ensure employers have a
chance to correct inaccuracies before other Federal agencies assess penalties or take
other enforcement actions.

Educational Correspondence

In addition to the DECOR process for employees, SSA established the EDCOR process
to notify employers of wage reporting problems. SSA has specific criteria for
determining which employers receive EDCOR letters. For example, in TY 2002 an
employer had to have more than 10 wage items in the ESF representing more than
.5 percent of the employer’s reported wages to receive an EDCOR letter. See Appendix
H for more criteria related to these letters.


16
    2006 Instructions for Forms W-2 and W-3, IRS, Department of the Treasury. Instructions state “If the
employee does not have a card, he or she should apply for one by completing Form SS-5, Application for
a Social Security Card. If the employee has applied for a card but the number is not received in time for
filing, enter ‘Applied For’ in box d on paper Forms W-2 filed with the SSA. (Enter zeros (000-00-0000) if
Form W-2 is filed electronically with the SSA.)”
17
    Due to the high reinstatement rate among the all zero SSN items, we reviewed the entire TY 2002
DECOR Mailer File to determine the total number of wage items with such characteristics. We found that
305,810 suspended wage items, or about 3 percent of theDECOR Mailer File, contained all zeros (either
reported as such or converted to zeros by SSA). Wealso determined that 198,946 (65 percent) of these
all zero items related to employer letters, with the remaining 106,864 (35 percent) related to employee
letters. This rate indicates that the all zero SSNs are five times more likely to be reinstated than any
other type of name/SSN mismatch problem highlighted in the employer letters.
Page 6 – The Commissioner


We reviewed the wage reporting information associated with the 14 employer-related
reinstatements in our sample to determine whether the employers would have also
received EDCOR letters. We found that of the 14 employers who received DECOR
letters, 10 employers (71 percent) would not have received an EDCOR letter from SSA
because they did not have a sufficient number of suspended wage items. Hence,
without the DECOR process the majority of these employers might have never learned
that their submitted employee information was incorrect, nor would they have had an
opportunity to correct the information.18

We also reviewed all employers in the TY 2002 DECOR Mailer File to determine if they
qualified for EDCOR letters. Under the TY 2002 criteria, we determined that about
760,300 (86 percent) of the approximately 883,700 employers with wage items in the
TY 2002 DECOR Mailer File did not qualify for EDCOR letters since the employers did
not have more than 10 suspended wage items.19 We show the distribution of
suspended wage items in the Mailer File in Table 3.

                   Table 3: Suspended Wage Items by Employer in the
                               TY 2002 DECOR Mailer File
     Range of Suspended
     Items Per Employer                 Number of Employers                    Percent of Total
            1 – 10                              760,321                               86.0
           11 – 100                             112,106                               12.7
          101 – 1,000                            10,492                                1.2
        1,001 – 5,000                               725                               0.08
        5,001 – 15,000                               65                               0.01
       15,001 – 36,000                                6                               0.00
            Totals                              883,715                               1001
Note: Numbers may not add to 100 percent due to rounding.

As noted above, some of the 760,321 employers that did not qualify for EDCOR letters
did learn about their wage reporting problems since SSA detected problems with the
employees’ addresses on the W-2 and sent the employers DECOR letters. We found
that approximately 253,300 employers not eligible for an EDCOR letter received at least
one DECOR letter. However, that still means that about 507,000 employers, or
57 percent of the employers in the TY 2002 DECOR Mailer File, did not receive a
DECOR or an EDCOR letter related to their wage reporting problems.20


18
   It is possible that the letter, if sent to the employee, would have led to a reinstatement as well.
However, we found that a number of letters sent to other employees of these same employers remained
in the ESF.
19
   The number of employers failing to meet the criteria could be even higher if we added the .5 percent of
reported wages requirement (since EDCOR requires more than 10 suspended wage items and more than
.5 percent of the items in the wage report failing to match SSA’s records), though we did not review this
percentage for the 883,700 employers in the TY 2002 DECOR Mailer File.
20
   Employers may have other ways to learn of these name/SSN mismatch problems during the wage
reporting process. For example, if the employer is filing electronically using SSA’s Business Online
Service, they can opt to receive additional information on wage reporting errors and inconsistencies.
Page 7 – The Commissioner


Sharing ESF Data with Other Federal Agencies

SSA correspondence with employers regarding name/SSN mismatches in their wage
reports could provide employers an opportunity to correct inaccuracies prior to other
Federal agencies acting on this information. For example, employers submitting wage
reports with name/SSN mismatches could be subject to IRS penalties. In addition, the
Department of Homeland Security (DHS) is seeking authority to obtain access to SSA’s
ESF data as part of its worksite enforcement efforts.

The Internal Revenue Code allows the IRS to penalize an employer if it fails to file a
complete and accurate wage reporting form.21 The penalty is $50 per incorrect form,
with a $250,000 annual limit.22 In an earlier audit,23 we noted that SSA provided a list to
the IRS of all employers with more than 100 items in the ESF, and sorted this list by the
number of items in suspense as well as the percent of reported wages in suspense.
Hence, SSA’s ESF information may become part of the IRS’ enforcement efforts,24
regardless of whether the employer is informed of the reporting inaccuracies.

DHS has also expressed interest in SSA’s ESF information.25 At a February 16, 2006
hearing on Social Security Number High-Risk Issues, DHS’ Assistant Secretary for
Policy stated:

        DHS sees a clear benefit to receiving portions of the “no-match” data from SSA
        in assisting with the Department’s mission to enforce immigration laws at the
        workplace. As I already stated, the SSA is using a variety of innovative and
        sophisticated methods to identify the SSNs to which the unreconciled earning
        reports should be attributed before sending out the “no-match” letters with
        respect to the remaining reports. The database of “no-match” letters, therefore,
        is already targeted to those unattributed earning reports that cannot




21
   26 U.S.C. § 6721.
22
   For businesses with average receipts of not more than $5 million, the limit is $100,000 annually.
23
   SSA Office of the Inspector General, Employers with the Most Suspended Wage Items in the 5-Year
Period 1997 through 2001 (A-03-03-13048), October 2004.
24
   However, according to the Commissioner of the IRS, the likelihood of specific investigations leading to
penalties for name/SSN mismatches may be small. At a July 26, 2006 hearing on Impacts of Border
Security and Immigration on Ways and Means Programs before the House Committee on Ways and
Means, Commissioner Mark Everson stated “From a tax compliance perspective, violations of these
provisions are generally identified as part of an overall employment tax examination. We would not
ordinarily initiate an examination against an employer solely on the basis that he/she had reported a high
number of mismatches. This is a function of both resources and the fact that the employer can easily
demonstrate that he/she has performed the due diligence required under the law.”
25
   Any data sharing between SSA and DHS regarding earnings-related information would need to
accommodate Section 6103 of the Internal Revenue Code (26 U.S.C. § 6103), which places restrictions
on the disclosure of taxpayer information.
Page 8 – The Commissioner

        be explained by, say, a simple misspelling in the employee’s name or a
        typographical error in his SSN. These true “no-match” letters could aid an U.S.
        Immigration and Customs Enforcement investigation of an employer violating
                          26
        immigration laws.

DHS issued a Federal Register notice in June 2006, titled Safe-Harbor Procedures for
Employers Who Receive a No-Match Letter,27 which describes employers’ current legal
obligations when they receive no-match letters from SSA and/or DHS.28 Employers are
expected to take reasonable steps to resolve the problem identified in the letter(s) or
they may be held responsible for violating provisions of the Immigration and
Naturalization Act. While the current proposals are limited to employers who actually
receive such letters from SSA, and we have noted that about 57 percent of employers
are not receiving such letters from SSA, continued interest in the contents of the ESF
could lead to additional scrutiny of employee wage matching problems associated with
employers who were not notified of the problems. In fact, SSA’s DECOR letters to
employers may now cause these employers to be subject to potential scrutiny under the
proposed DHS requirements.

Finally, employers may want to learn of any name/SSN mismatches to ensure the
integrity of their underlying employee information. While SSA offers a number of useful
employee verification services to assist employers with problems,29 these employers
need to first learn of their wage reporting problems if they are expected to understand
the benefit of such services. Moreover, the lack of SSA feedback on wage reporting
errors not only prevents employers from correcting the employee data sent to SSA, but
it may also lead to employers using incorrect names/SSNs on other State and Federal
documents, such as reports to the Office of Child Support Enforcement (OCSE).30




26
   Statement of The Honorable Stewart A. Baker, Assistant Secretary for Policy, U.S. Department of
Homeland Security, Testimony Before the Subcommittee on Oversight of the House Committee on Ways
and Means, February 16, 2006. In the past, the term “no-match” letters has applied to SSA
correspondence with employees and employers to correct items in the ESF, including DECOR and
EDCOR letters.
27
   Federal Register Vol. 71, No. 114 (71 FR 34281). DHS access to SSA no-match data is also proposed
in Senate Bill 2611, Comprehensive Immigration Reform Act of 2006, 109th CONGRESS, 2d Session,
S. 2611, § 301(e).
28
   DHS sends an employer a “no-match” letter when the immigration status or employment authorization
documentation presented or referenced by the employee in completing the DHS’ Employment Eligibility
Verification form (Form I-9) was not assigned to the employee according to DHS records.
29
   For example, SSA established the Social Security Number Verification Service, rolled-out nationwide in
June 2005, as a free on-line service employers can use to verify new and existing employees’
information, including name, SSN, date of birth, and gender.
30
   OCSE uses the employee information to locate non-custodial parents and their income and assets.
Often, the information on the IRS’ Employee’s Withholding Allowance Certificate (Form W-4) is the
source document used to report the employee information to the State. The W-4 is also used by
employers to prepare the W-2 submitted to SSA.
Page 9 – The Commissioner


CONCLUSION AND RECOMMENDATIONS
Our review indicates that DECOR letters to employers are a valuable part of the
Agency’s reinstatement processes. In fact, suspended wage items referred to
employers are more likely to be reinstated under the DECOR process than letters to
employees. Moreover, DECOR letters may be the only occasion an employer has to
learn of employee name/SSN problems since most employers in the TY 2002 DECOR
Mailer File never received an EDCOR letter. Providing this information to employers
assists SSA in reducing the size of the ESF, while providing the employer a chance to
correct problems before SSA or other Federal agencies take additional actions.

For these reasons, we recommend SSA continue to send DECOR letters to employers
as part of its overall DECOR correspondence process.

AGENCY COMMENTS
SSA concurred with our recommendation. The Agency’s comments are included in
Appendix I.




                                              S
                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Decentralized Correspondence Letter Sent to Employers

APPENDIX C – Decentralized Correspondence Flowchart

APPENDIX D – Contents of the Decentralized Correspondence Mailer File

APPENDIX E – Scope and Methodology

APPENDIX F – Sample Methodology

APPENDIX G – Reinstated Wage Items

APPENDIX H – Educational Correspondence

APPENDIX I – Agency Comments

APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                       Appendix A
Acronyms
DECOR   Decentralized Correspondence
DHS     Department of Homeland Security
EDCOR   Educational Correspondence
EIN     Employer Identification Number
ESF     Earnings Suspense File
IRS     Internal Revenue Service
MEF     Master Earnings File
NCC     National Computer Center
OCSE    Office of Child Support Enforcement
OIG     Office of the Inspector General
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security number
TY      Tax Year
Forms
I-9     Employee Eligibility Verification
W-2     Wage and Tax Statement
W-4     Employee’s Withholding Allowance Certificate
                                   Appendix B
Decentralized Correspondence Letter Sent to
Employers




                     B-1
B-2
B-3
                                                                                                                        Appendix C
Decentralized Correspondence Flowchart

                         National Computer
  Suspended              Center (NCC) creates
    Items                suspended Wage Database
                                                                                                  New Address -
             Transmitted to Contractor via                                                          Remailed
            Transmitted
             Wilkes-BarretoData
                            Contractor
                                Operations Center


                                                                  Recipient                        Undeliverable
  Contractor                          DECOR                        Reply?                           (Destroyed)


 DECOR notices printed
 and mailed to employees/                                 Notices returned to SSA’s
                                                                                                  Notices with
 employers                                                Wilkes-Barre Data Operations
                                                          Center and Sorted                         Replies



  Condition
  of Reply?                                                                                                               Remains
                            Data Entry Operator          Scanned/                                                       in Earnings
                            scans/inputs information                                                                     Suspense
                                                       Input Replies                                     No
Questionable &                                                                                                              File
damaged
replies sent                                                                          Good
for resolution                                                                        Name/
                                                                                      SSN?               Yes            Posted to
                                                                                                                         Master
   Earnings                                                                                                             Earnings
  Technician                                                         Scanned/input replies sent to NCC and run
                                                                                                                          File
                                                                     through electronic edits to determine if
                                                                     reinstatement of wages possible. Earning
                                                                     technician can also manually reinstate earnings.
                                                                                   Appendix D
Contents of the Decentralized Correspondence
Mailer File
The Tax Year (TY) 2002 Decentralized Correspondence (DECOR) Mailer File contained
data for approximately 7.6 million letters sent to employees and another 1.9 million
letters sent to employers (see Table D-1). Furthermore, our analysis of the entire
TY 2002 DECOR file showed there were about 884,000 specific employers in the file.

               Table D-1: Breakout of the Tax Year 2002 DECOR Mailer File
                                                                                  Percent of Items
       File Contents              Wage Items                   Wages                  Per File
    Employee File                   7.6 million             $49.8 billion                  80
    Employer File                   1.9 million             $10.6 billion                  20
    Total                          9.5 million             $60.4 billion                  100

We analyzed the 9.5 million wage items contained in the TY 2002 DECOR Mailer File
and determined that approximately 9 million (94 percent) of these wage items were
related to TY 2002, while the remainder related to prior TYs. For example,
approximately 264,000 wage items related to TY 2001 (see Table D-2).

             Table D-2: Reported Tax Years in the Entire DECOR Mailer File
              Tax Year              Number of Wage Items                 Volume of Wages
               2002                         8,992,179                        $57.6 billion
               2001                           264,477                         $1.4 billion
               2000                           130,689                           $.8 billion
             1978-1999                        142,266                           $.6 billion
               Blank                              278                        $.004 billion
               Total                        9,529,889                       $60.4 billion
    Note: Blank indicates that there was no tax year associated with the wage items.

In our September 2005 audit, Usefulness of Decentralized Correspondence in Focusing
Employer-Assistance Activities (A-03-05-25007), we reviewed the addresses associated
with the letters sent to employers and identified the States with employees having the
highest number of employee letters in the DECOR Mailer File.1 The top




1
  This analysis was based on DECOR letters sent to employees in the 50 States plus the District of
Columbia; or about 80 percent of all suspended wage items. We reviewed the DECOR employee file
since it contained the employees’ addresses. SSA will send a letter to an employer when it lacks a valid
address for the employee. In our analysis of the 20 percent of DECOR letters sent to employer
addresses we found that the same 10 States were predominant.


                                                   D-1
10 States accounted for 72 percent of the TY 2002 DECOR letters sent to employees
even though they represented about 48 percent of the national workforce as shown in
Table D-3.

                   Table D-3: Comparison of the Top 10 States Ranking
                    of Suspended Wage Items and National Workforce
                   (Based on a Review of the Tax Year 2002 DECOR Employee File)
                          Ranking in         Percent of       Ranking in Terms         Percent of the
                        Terms of Wage         DECOR               of State               National
      States (1)            Items             Letters            Workforce             Workforce (2)
 California                    1                 29.7                 1                     11.0
 Texas                         2                  9.6                 2                      7.0
 Florida                       3                  6.8                 4                      5.7
 Illinois                      4                  6.2                 6                      4.3
 New Jersey                    5                  4.0                 9                      3.1
 New York                      6                  3.4                 3                      6.6
 Arizona                       7                  3.3                 21                     1.8
 North Carolina                8                  3.2                 10                     3.0
 Washington                    9                  3.2                 15                     2.2
 Georgia                       10                 3.0                 11                     3.0
 Totals                                         72.4%                                      47.7%
Notes: (1) Our analysis does not include DECOR letters sent to Guam, Puerto Rico, American Samoa,
       Virgin Islands, Marshall Islands, and overseas addresses related to the Armed Forces. A total of
       4,397 letters related to these locations.
       (2) State workforce statistics were taken from State Statistics, Office of Policy, SSA, December
       2003.




                                                  D-2
                                                                                  Appendix E
Scope and Methodology
To meet our objective, we performed the following steps.

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    reports related to the Earnings Suspense File (ESF) and wage reporting problems.

•   Reviewed applicable Federal laws and regulations, as well as SSA’s policies and
    procedures for maintaining individual earnings records and contacting employers
    with suspended wages.

•   Obtained a copy of the Decentralized Correspondence (DECOR) Mailer File from
    SSA related to wage reports submitted during the Tax Year (TY) 2002 reporting
    period.1 This file contained 9,529,889 wage items, with a corresponding value of
    $60.4 billion.2

•   Selected two random samples from the TY 2002 DECOR Mailer File — 275 sample
    items from the 1,922,851 letters sent to employers and another 275 sample items
    from the 7,607,038 letters sent to employees. We determined whether the related
    wage items had been reinstated to the Master Earnings File or were still in the ESF.
    We also analyzed the two populations, and associated reinstatements, for relevant
    trends and characteristics. Our sample methodology and projections can be found
    in Appendix F.

•   Obtained copies of Wage and Tax Statements (Form W-2) from SSA’s Office of
    Central Operations to determine whether an employee’s address was incomplete,
    necessitating the mailing of a letter to the employer’s address. We also reviewed
    other W-2s, including ESF items with all zeros in the SSN field, to determine what
    was actually reported by the employer.

•   Met with SSA staff to share our results and obtain explanations for issues identified
    during our audit.

Our audit did not include an evaluation of SSA's internal controls over the wage
reporting process. The purpose of our review was to review reinstatements related to
wages accumulated in the ESF. We did not focus our efforts on the collection of wage
data, nor did we attempt to establish the reliability or accuracy of such data.

1
  Although the majority of the DECOR file related to TY 2002 wages, some wages related to earlier TYs
were also reported to SSA during the same period and placed in this file. However, for the purposes of
this report, we are referring to the DECOR file as a TY 2002 file.
2
  Earnings items identified as self-employment income for TY 2002 were not included in this population
since self-employment data were contained in a separate file.



                                                  E-1
In prior audits, we reviewed the completeness and accuracy of the ESF postings, and
tested the accuracy of ESF data reinstated to earnings records.

Our work was conducted at the Mid-Atlantic Processing Service Center in Philadelphia,
Pennsylvania and at SSA Headquarters in Baltimore, Maryland. Our work was
conducted between May and June 2006. The SSA entities responsible for the
maintenance and monitoring of the ESF, as well as the mailing of the DECOR letters,
are the Employer Wage Report and Relations Staff in the Office of the Deputy
Commissioner for Budget, Finance and Management, the Office of Earnings,
Enumeration and Administrative Systems within the Office of the Deputy Commissioner
for Systems, and the Office of Central Operations within the Office of the Deputy
Commissioner of Operations. Our review was conducted in accordance with generally
accepted government auditing standards.




                                         E-2
                                                                     Appendix F
Sample Methodology
To determine the number of reinstatements related to each type of Decentralized
Correspondence (DECOR) letter among our population of 9,529,889 items in the Tax
Year 2002 DECOR Mailer File, we selected 275 random items from each of the two
populations: 1,922,851 employer letters and 7,607,038 employee letters. We
determined the number of reinstatements to earners’ records found among each
sample, using information within the Social Security Administration’s systems to ensure
the reinstatements were associated with the DECOR correspondence.

In terms of the employer letters, we determined that 14 reinstatements were associated
with approximately $165,000 in reinstated wages. Projecting these reinstatements to
the population of 1,922,851 employer letters, we estimate these letters led to the
reinstatement of an estimated 97,900 wage items related to about $1.2 billion in wages.

In terms of the employee letters, we determined that 8 reinstatements were associated
with approximately $49,000 in reinstated wages. Projecting these reinstatements to the
population of 7,607,038 employee letters, we estimate these letters led to the
reinstatement of an estimated 221,300 wage items related to about $1.3 billion in
wages.

            Sample Results and Projections – Employer Letters
 Population size                                                              1,922,851
 Sample size                                                                        275
                                  Attribute Projection
 Sample cases – number of reinstated wage items associated
                                                                                     14
 with DECOR letters sent to employers
 Projection – number of reinstated wage items associated with
                                                                                 97,891
 DECOR letters sent to employers in our population
 Projection lower limit                                                         59,681
 Projection upper limit                                                        150,832
                                   Dollar Projection
 Sample cases – reinstated wages associated with DECOR
                                                                              $164,575
 letters sent to employers
 Projection – reinstated wages associated with DECOR letters
                                                                        $1,150,740,529
 sent to employers in our population
 Projection lower limit                                                    $43,302,741
 Projection upper limit                                                 $2,258,178,318




                                          F-1
          Sample Results and Projections – Employee Letters
Population size                                                     7,607,038
Sample size                                                               275
                                 Attribute Projection
Sample cases – number of reinstated wage items associated
                                                                           8
with DECOR letters sent to employees
Projection – number of reinstated wage items associated with
                                                                     221,296
DECOR letters sent to employees in our population
Projection lower limit                                               110,730
Projection upper limit                                               394,622
                                  Dollar Projection
Sample cases – reinstated wages associated with DECOR                $48,592
letters sent to employees
Projection – reinstated wages associated with DECOR letters    $1,344,149,507
sent to employees in our population
Projection lower limit                                           $313,630,557
Projection upper limit                                         $2,374,668,457




                                        F-2
                                                                                 Appendix G
Reinstated Wage Items
To determine the number of reinstatements related to each type of Decentralized
Correspondence (DECOR) letter among our population of 9,529,889 items in the Tax
Year (TY) 2002 DECOR Mailer File, we selected 275 random items from each of the
two populations: 1,922,851 employer letters and 7,607,038 employee letters. Among
the employer letters, we found that 14 wage items (5.1 percent) were reinstated under
the DECOR process. Another 4 wage items were reinstated under other processes
(see Table G-1).

                 Table G-1: Reinstated Employer Letter Sample Items
                             (TY 2002 DECOR Mailer File)
 Reinstatement Process         Number of Items Reinstated            Percent of Reinstatements
 DECOR                                        14                                  77.8
 SWEEP1                                        3                                  16.7
 GAP Process2                                  1                                   5.6
 Total                                        18                                  1003
 Note 1: SWEEP is an electronic operation that periodically uses the Social Security Administration’s
 (SSA) latest system enhancements and validation rules, including more than 20 routine edits used on
 incoming wages, to remove items from the Earnings Suspense File (ESF) and reinstate them to
 wage earners' Master Earnings File records.
 Note 2: GAP Process relates to a relatively new edit developed by SSA’s Office of Quality
 Performance which, among other things, looks for gaps in an individual’s earnings history to
 determine if a suspended earnings item may relate to that individual.
 Note 3: May not add to 100 percent due to rounding.

Among the employee letters, we found 8 wage items (2.9 percent) were reinstated
under the DECOR process. Another 13 wage items were reinstated under other
processes (see Table G-2).

                 Table G-2: Reinstated Employee Letter Sample Items
                             (TY 2002 DECOR Mailer File)
 Reinstatement Process        Number of Items Reinstated             Percent of Reinstatements
 IRS Reinstates1                             11                                  52.4
 DECOR                                        8                                  38.1
 Item Correction2                             1                                   4.8
 SWEEP                                        1                                   4.8
 Total                                       21                                  1003
 Note 1: The IRS provides SSA a file containing resolved mismatches so that SSA can use this
 information to locate the owners of suspended items in the ESF.
 Note 2: This paper-less process allows SSA staff to correct the earnings record manually. SSA
 employees can add, change, move, or delete an individual's earnings overnight via on-line interactive
 screens.
 Note 3: May not add to 100 percent due to rounding.




                                                  G-1
Tables G-3 and G-4 provide additional details on the wage reports reinstated under the
DECOR process. We found that the average wage for the employer-related letters was
$11,755, with a median wage of $1,201. The average wage for the employee-related
letters was $6,074, with a median wage of $5,007.

            Table G-3: Characteristics of Wage Items Reinstated Under an
                      Employer Letters Via the DECOR Process
                             Type of                                          Year
             Tax         Mismatch/Social                          Age at     Issued      Earner’s
  Case      Year of      Security number         Reinstated       Time of    an SSN       Place
 Number    Earnings        (SSN) Issue            Wages          Earnings    by SSA      of Birth
                                                                                          United
    1        1999      BLANK1                        $ 364.50        22       1979        States
                                                                                          United
    2        2000      ALPHANUMERIC1                    2.24         39       1973        States
    3        2002      NAME/SSN                    33,836.49         44       1987       Mexico
                                                                                          United
    4        1993      NAME/SSN                      1,554.66        50       1973        States
                                                                                          United
    5        2002      NAME/SSN                      4,008.75        32       1982        States
                                                                                          United
    6        2002      NAME/SSN                         28.56        25       1987        States
                                                                                          United
    7        2002      BLANK1                          822.69        25       1987        States
                                                                                          United
    8        2002      BLANK1                          505.00        30       1984        States
                                                                                          United
    9        2002      NAME/SSN                    84,900.00         54       1963        States
                                                                                          United
    10       2002      BLANK1                          847.88        18       1989        States
                                                                                          United
    11       2002      BLANK1                          663.68        35       1970        States
                                                                                          United
    12       2002      BLANK1                        2,735.63        48       1969        States
                                                                                          United
    13       2002      NAME/SSN                     4,785.10         40       1978        States
    14       2002      NAME/SSN                    29,520.05         33       1983      Philippines
  Total                                        $164,575.23
Note 1: “Blank” and “Alphanumeric” mismatches appeared in the ESF File as 000-00-0000 after SSA
had converted the incoming information. Our review of the Wage and Tax Statements (Form W-2)
determined the actual content.




                                               G-2
              Table G-4: Characteristics of Wage Items Reinstated Under
                      Employee Letters Via the DECOR Process
                                                                                 Year
                               Type of                            Age at      Issued an     Earner’s
   Case       Tax Year of     Mismatch/        Reinstated         Time of       SSN by       Place
  Number       Earnings       SSN Issue         Wages            Earnings        SSA        of Birth
                                                                                            United
     1           2001        NAME/SSN          $ 2,192.31           21          1986        States
                                                                                            United
     2           2002        NAME/SSN              698.42           49          1969        States
                                                                                            United
     3           2002        NAME/SSN            7,923.73           55          1965        States
                                                                                            United
     4           2002        NAME/SSN              690.71           36          1979        States
     5           2002        NAME/SSN            6,708.71           35          20041       Mexico
                                                                                            United
     6           2002        NAME/SSN            9,978.50           25          1979        States
     7           2002        NAME/SSN           17,093.82           32          20041       Mexico
                                                                                            United
     8           2002        NAME/SSN            3,305.79           17          1990        States
   Total                                     $48,591.99
Note 1: In two cases individuals received their SSNs after performing work. We reported on earnings
reported before the worker was enumerated in our August 2005 audit Reported Earnings Prior to the
Issuance of a Social Security Number (A-03-04-14037).




                                                 G-3
                                                                         Appendix H
Educational Correspondence
In addition to Decentralized Correspondence (DECOR) letters, the Social Security
Administration (SSA) also sends educational correspondence (EDCOR) to employers
who submit wage items containing name and/or Social Security number (SSN)
information that does not agree with SSA's records. EDCOR letters list up to 500 SSNs
but do not provide the employees’ names. SSA requests that employers file corrected
Wage and Tax Statements (Form W-2) to correct the error(s). As a result, employers
may receive both DECOR and EDCOR letters from SSA. Criteria for sending these
letters are shown in Table H-1.
                      Table H-1: SSA’s Criteria for Sending EDCOR Letters


     2003           Letters were sent to employers who submitted a wage report
    and later       containing more than 10 W-2s that SSA could not process and the
     years          mismatched forms represented more than .5 percent of the total
  (Tax Year 2002
     and later)     W-2s reported.


                    Letters were sent to employers who submitted a wage report where
     2002           the name and/or SSN on at least one W-2 did not agree with SSA’s
  (Tax Year 2001)   records. (The decision to send a letter to every employer with just
                    one "no match" was made in May 2000.)


     2001           Letters were sent to employers who submitted a wage report
   and prior        containing more than 10 W-2s that SSA could not process, and the
     years          mismatched forms represented more than 10 percent of the total
  (Tax Year 2000
     and prior)     W-2s reported.


Under the above scenario, the following situations could have occurred in TY 2002:
Example A: Employer has 10 employees and all have incorrect name/SSN
combinations – no EDCOR letter to the employer.
   Reason: Employer has only 10 suspended wage items, even though 100 percent of
   reported wages failed to match SSA’s records.
Example B: Employer has 20,000 employees and 100 employees have incorrect
name/SSN combinations – no EDCOR letter to the employer.

   Reason: While employer has more than 10 suspended wage items, these items did
   not represent more than .5 percent of the reported wages.



                                              H-1
Example C: Employer has 20,000 employees and 120 employees have incorrect
name/SSN combinations – EDCOR letter sent to the employer.

    Reason: Employer has more than 10 suspended items, and more than .5 percent of
    the reported wages failed to match SSA’s records.

PRIOR STUDIES

SSA has modified its ESF correspondence processes over the years, including DECOR
and EDCOR letters. Some of these changes were documented in a December 1999
study1 issued by the Annual Wage Reporting Error Notices Workgroup. The charter of
the group was to review error letters for completeness, efficiency, and effectiveness.
While the report made 27 recommendations, some were specific to DECOR and
EDCOR, including:
•   Send a letter to all 850,000 employers who contribute at least 1 item annually to the
    SSA Suspense File.2 The report noted that SSA did not send letters to about
    800,000 employers who contributed items to the ESF, and “employers were vocal
    about not being able to fix what they did not know about.”3
•   Send DECOR to employees only, and do so after employers have had 90 days to
    respond to the EDCOR letter.

In our July 2002 audit, Effectiveness of the Social Security Administration’s
Decentralized Correspondence Process,4 we noted that SSA could further improve the
effectiveness of the DECOR process by minimizing duplication with other validation
techniques and following up with the earners on unresolved DECOR responses. To
improve the effectiveness of the DECOR process, we recommended SSA remove
employer letters from the DECOR process once the EDCOR process has been fully
implemented so employers are informed of all wage items with name/SSN mismatches.
As noted above, SSA increased the number of EDCOR letters during Calendar Year
2002 and then modified its policy the following year. As a result, the current policy of
sending DECOR letters to employers may lead to some overlap, but it also provides
letters to some employers who would never receive letter from SSA under the EDCOR
process.




1
  Letter from Joe Duey, Assistant Associate Commissioner for Earnings Operations to Norm Goldstein,
Senior Financial Executive, December 30, 1999.
2
  As Table G-1 indicates, SSA sent EDCOR letters to all employers with at least one suspended wage
item in Calendar Year 2002 (mostly for wage items related to Tax Year 2001).
3
  The report also noted “as technology permits, provide an electronic means for letter delivery to
employers, since this would be key to accomplishing this goal for large listings.” At the time of the report,
EDCOR letters included a list of up to 250 suspended wage items. SSA’s current letter has been
expanded to include up to 500 suspended wage items.
4
  SSA Office of the Inspector General, Effectiveness of the Social Security Administration’s Decentralized
Correspondence Process (A-03-01-11034), July 2002.


                                                    H-2
                  Appendix I
Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM                                                                             0609-0011243


Date:      September 14, 2006                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Effectiveness of Decentralized
           Correspondence Sent to Employers” (A-03-06-26096)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         I-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “EFFECTIVENESS OF DECENTRALIZED CORRESPONDENCE SENT TO
EMPLOYERS” (A-03-06-26096)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Continue to send DECOR letters to employers as part of its overall DECOR process.

Comment

We agree. We will continue to send DECOR letters to employers, as accurate earnings
information is necessary to ensure that SSA credits the correct earnings to the correct
individual’s record. Providing this information to employers also assists the Agency in its
efforts to reduce the size of the Earnings Suspense File.

[In addition to the comments above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]




                                               I-2
                                                                      Appendix J
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments

In addition to those named above:

   Richard Devers, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-06-26096.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
